                                                                         OCCUPATIONAL SAFETY AND

U.S. Department of Labor                                                 HEALTH ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         VOLUNTARY PROTECTION PROGRAM:
                                                                         CONTROLS ARE NOT SUFFICIENT TO ENSURE
                                                                         ONLY WORKSITES WITH EXEMPLARY SAFETY
                                                                         AND HEALTH SYSTEMS REMAIN IN THE
                                                                         PROGRAM




                                                                                            Date Issued:   December 16, 2013
                                                                                         Report Number:      02-14-201-10-105
U.S. Department of Labor                                         December 16, 2013
Office of Inspector General
Office of Audit
                                                                 VOLUNTARY PROTECTION PROGRAM:
                                                                 CONTROLS ARE NOT SUFFICIENT TO
                                                                 ENSURE ONLY WORKSITES WITH
BRIEFLY…                                                         EXEMPLARY SAFETY AND HEALTH SYSTEMS
Highlights of Report Number 02-14-201-10-105, issued             REMAIN IN THE PROGRAM
to the Assistant Secretary for Occupational Safety and
Health.                                                          WHAT OIG FOUND
                                                                 OSHA did not have sufficient controls to ensure VPP
WHY READ THE REPORT                                              worksites maintained exemplary occupational safety
Since 1982, the Occupational Safety and Health                   and health systems.
Administration (OSHA) has used the Voluntary
Protection Programs (VPP) to establish cooperative               •		   13 percent of participants had injury and illness
relationships with businesses and their workers to help                rates above industry averages or were cited with
prevent fatalities, injuries, and illnesses; and to officially         violations of safety and health standards, but most
recognize worksites with exemplary safety and health                   of these participants were allowed to remain in the
management systems. Once approved for VPP, a                           program. Moreover, OSHA policy allowed
worksite was exempt from OSHA programmed                               participants with injury and illness rates above
inspections as long as it complied with program                        industry averages to potentially remain in the
requirements and maintained exemplary systems.                         program for up to 6 years, raising serious questions
                                                                       as to whether the companies were fully protecting
To ensure VPP participants maintained exemplary                        their workers.
systems, OSHA evaluated the systems while selecting,
reevaluating, and monitoring worksites. First, a worksite        •		   11 percent of participants were not evaluated in a
submitted an application to OSHA describing its                        timely manner. Policy had timeliness requirements
systems and opened itself to agency scrutiny that                      for onsite evaluations, but OSHA’s existing
included an onsite evaluation by a team of safety and                  processes did not effectively ensure compliance.
health experts. Second, OSHA conducted periodic
onsite reevaluations to ensure participants maintained           •		   OSHA could not identify the universe of participants
the requirements of the program. Third, OSHA                           or applicants because it tracked VPP data in at
monitored the participant between onsite reevaluations                 least 11 different databases that were not
by reviewing their annual self-evaluation report,                      reconciled; and data ranged between 1,743 to
following up on inspections, and performing other                      1,859 for participants, and 19 to 274 for applicants.
oversight activities.
                                                                 •		   OSHA used unreliable injury and illness data to
WHY OIG CONDUCTED THE AUDIT                                            evaluate participants and in reported program
We conducted a performance audit of VPP for Fiscal                     statistics. For a judgmental sample, 60 percent of
Year (FY) 2012 to answer the following question:                       reported rates differed significantly (by more than
                                                                       half) from source documents.
•		   Does OSHA have sufficient controls for the
      selection, timely reevaluation, and monitoring of          WHAT OIG RECOMMENDED
      VPP participants?                                          The OIG made recommendations to the Assistant
                                                                 Secretary for Occupational Safety and Health covering
READ THE FULL REPORT                                             policies, controls, and oversight so OSHA can better
To view the report, including the scope, methodology,            ensure only VPP participants with exemplary safety and
and full agency response, go to:                                 health systems remain in the program.
http://www.oig.dol.gov/public/reports/oa/2014/02-14­
201-10-105.                                                      OSHA agreed with the recommendations, but stated it
                                                                 generally followed its policies and procedures and most
                                                                 VPP sites had exemplary safety and health systems.
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
                                   Report No. 02-14-201-10-105
                                                       U.S. Department of Labor – Office of Inspector General




Table of Contents



Inspector General’s Report ............................................................................................. 1



Results In Brief .............................................................................................................. 2



Objective — Does OSHA have sufficient controls over the selection, timely


reevaluation, and monitoring of VPP participants? ................................................... 4


          VPP's evaluation processes and monitoring controls are not sufficient to 

            ensure only participants with exemplary safety and health systems


            were in the program. ....................................................................................... 4



          Finding 1 — Policy allowed participants with injury and illness rates higher


             than industry averages to remain in VPP for up to 6 years ............................. 5


          Finding 2 — Participants with serious violations of safety and health


             standards remained in VPP............................................................................. 8


          Finding 3 — Participants were not evaluated in a timely manner. ...................... 11


          Finding 4 — OSHA did not maintain reliable data for applicants and 

             participants .................................................................................................... 13


          Finding 5 — Reported program success in reducing injury and illness


             rates were not based on reliable data. .......................................................... 15



Recommendations ...................................................................................................... 17



Exhibits
          Exhibit 1 Application Processing Timeframe and Results................................... 21


          Exhibit 2 Reevaluation Processing Timeframe and Results ............................... 23



Appendices
          Appendix A Background ..................................................................................... 27


          Appendix B Objective, Scope, Methodology, and Criteria .................................. 31


          Appendix C Acronyms and Abbreviations .......................................................... 35


          Appendix D OSHA Response to Draft Report .................................................... 37


          Appendix E Acknowledgements ......................................................................... 43






                                                                                                           OSHA VPP
                                                                                          Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
                                   Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




December 16, 2013

                             Inspector General’s Report



Dr. David Michaels
Assistant Secretary
 for Occupational Safety and Health
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

Since 1982, the Occupational Safety and Health Administration (OSHA) has used the
Voluntary Protection Programs (VPP) to establish cooperative relationships with
businesses and their workers to help prevent fatalities, injuries, and illnesses; and to
officially recognize worksites with exemplary safety and health management systems.
Once approved for VPP participation, a worksite is exempted from OSHA programmed
inspections as long as it complies with program requirements and maintains exemplary
systems.

To ensure VPP participants maintain exemplary systems, OSHA evaluates the systems
while selecting, reevaluating, and monitoring worksites. First, a worksite submits an
application to OSHA describing its systems and opens itself to agency scrutiny that
includes an onsite evaluation by a team of safety and health experts. Second, OSHA
conducts periodic onsite reevaluations to ensure participants maintain the requirements
of the program. Third, OSHA monitors the participant between onsite reevaluations by
reviewing their annual self-evaluation report, following up on inspections, and
performing other oversight activities. See Appendix A for additional background
information.

We conducted a performance audit of VPP for Fiscal Year (FY) 2012 to answer the
following question:

      Does OSHA have sufficient controls for the selection, timely reevaluation, and
      monitoring of VPP participants?

We reviewed the OSHA Directive Voluntary Protection Programs (VPP): Policies and
Procedures Manual and related policy memoranda. We conducted interviews at
OSHA’s National Office and 4 sampled regional offices, and tested compliance with
program requirements. We analyzed FY 2012 data on VPP applications, reevaluations,
and active participants from OSHA’s National Office and all 10 regional offices. We


                                                                                        OSHA VPP
                                             1                         Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General


statistically sampled and reviewed documentation at 4 regional offices for 28 initial
applications and 78 reevaluations. See Appendix B for the complete scope,
methodology, and criteria.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

The purpose of VPP is to recognize worksites with exemplary safety and health
management systems. However, OSHA did not have controls in place to sufficiently
select, reevaluate, and monitor VPP participants to ensure their worksites maintained
exemplary status. As a result, we found approximately 13 percent of VPP participants
had injury and illness rates above industry averages or had been cited for violations of
safety and health standards. Most of these participants were still allowed to remain in
the program. Additionally, OSHA had not reevaluated another 11 percent of VPP
participants timely enough to ensure they maintained exemplary systems. Some
reevaluations had still not been performed a year past their due dates.

During the selection, reevaluation, and monitoring processes, OSHA reviewed
participant injury and illness rates and compared them to industry averages. However,
OSHA policy allowed participants with rates above industry averages to potentially
remain in the program for up to 6 years. The fact companies were allowed up to 6 years
to correct their higher-than-average injury and illness rates raises serious questions
about whether or not these companies were fully protecting their workers. Additionally,
for participants that had been inspected and cited for serious violations of safety and
health standards, VPP policies did not require OSHA to determine the underlying
causes for those serious violations.

For the selection, reevaluation, and monitoring processes, we found issues regarding
data reliability, which impacted VPP entry and exit, participant reevaluations, and
reported successes. For instance, OSHA could not identify all VPP participants or
applicants because it tracked VPP data in at least 11 different databases that were not
reconciled. As a result, OSHA did not have an accurate count of how many worksites
were in the program (1,746 to 1,851) or how many applications were awaiting approval
(20 to 232). Additionally, OSHA used injury and illness data for the reevaluation process
and to report on overall program successes, however the information was not reliable.

We made recommendations to the Assistant Secretary for Occupational Safety and
Health covering policies, controls, and oversight so OSHA can better ensure only VPP
participants with exemplary safety and health systems remain in the program.


                                                                                OSHA VPP
                                             2                 Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General


OSHA’S RESPONSE

OSHA acknowledged some deficiencies and inconsistencies remain in the management
of the VPP program and agreed to take action on the report recommendations.
However, OSHA questions the assumption that its policies for oversight of VPP
participants – such as allowing up to 4 years of higher than industry average injury and
illness rates, and an additional 2 years to reduce rates before voluntary withdrawal or
termination – do not fully protect workers. Injury and illness rates are only one of many
factors used to evaluate participants and OSHA does not believe that every participant
that exceeds the industry average is necessarily failing to fully protect its workers.
OSHA believed it was generally following its policies and procedures for implementing
VPP and that the vast majority of the sites in the program have exemplary safety and
health management systems. The Assistant Secretary’s entire response is contained in
Appendix D.

OIG’S CONCLUSION

The VPP manual states that VPP participants are models of safety and health
excellence with systems to effectively prevent and control hazards so that worker
injuries and illnesses are prevented. The audit raised serious concerns regarding OSHA
policies based on indicators (higher than industry average injury and illness rates, and
inspections citing serious violations of OSHA standards) that some VPP participants
were not effectively preventing and controlling hazards.

With few exceptions, OSHA followed its policy for participants with higher than average
injury and illness rates. OSHA’s policy requires using 3-year average rates as the
benchmark, waiting up to 4 years before taking action on participants with higher than
industry average rates, and then waiting another 2 years before termination or
requesting voluntary withdrawal from VPP. OSHA provided documentation to support
the use of the 3-year average rates as the benchmark, but has not justified the waiting
periods – up to 4 years before initial corrective actions and another 2 years before final
actions. Since VPP participants are supposed to model safety and health excellence
and prevent worker injury and illnesses, we question the appropriateness of OSHA’s
policy to delay actions on participants with higher than industry average rates.




                                                                                OSHA VPP
                                             3                 Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Does OSHA have sufficient controls over the selection, timely
            reevaluation, and monitoring of VPP participants?

      VPP's evaluation processes and monitoring controls are not sufficient to
      ensure only participants with exemplary safety and health systems were in
      the program.

For selecting, reevaluating, and monitoring VPP participants, OSHA did not have
sufficient controls to ensure the worksites maintained exemplary occupational safety
and health systems. We found approximately 13 percent of participants did not have
systems that fully protected their employees’ safety and health. Most of these were still
allowed to remain in the program. Additionally, 11 percent of participants were not
evaluated timely to ensure they maintained exemplary systems – some of which were
still not performed a year past the reevaluation due date.

The purpose of VPP is to recognize worksites with exemplary safety and health
management systems. OSHA established policies and procedures to ensure VPP
participants had and maintained exemplary systems during the selection, reevaluation,
and monitoring of worksites. During selection, OSHA reviews the worksite’s application
and conducts an onsite evaluation to determine whether the applicant worksite has
established exemplary systems. After approval for the program, OSHA conducts
periodic on-site reevaluations and monitoring (review of participant’s annual
self-evaluation and other oversight) to determine the participant’s continuing eligibility
for the program. These policies and procedures are explained further in Appendix A.

However OSHA’s system of internal controls had weaknesses where it did not meet the
following Federal standards for control activities, information and communication, and
monitoring the effectiveness of controls. OMB Circular A-123, Management’s
Responsibility for Internal Control, states “Effective internal control is a key factor in
achieving agency missions and program results through improved accountability.” The
Circular also states:

       Control activities should include policies, procedures and mechanisms to
       help ensure that agency objectives are met and that data is valid and
       complete.

       Relevant, reliable and timely information should be communicated to
       relevant personnel within an organization and with outside organizations.

       Monitoring the effectiveness of controls should occur in the normal course
       of business. Periodic reviews, reconciliations or comparisons of data
       should be included as part of the regular assigned duties of personnel.



                                                                                OSHA VPP
                                             4                 Report No. 02-14-201-10-105
                                                  U.S. Department of Labor – Office of Inspector General


As a result, 236 of 1,834 participants 1 (13 percent) did not fully protect their employees,
and most were allowed to remain in the program. Specifically, 157 participants
(9 percent) had injury and illness rates above industry averages and, according to
policy, were allowed to remain in VPP for up to 6 years before voluntary withdrawal or
termination (Finding 1). Another 79 (4 percent) were inspected because of fatalities,
catastrophic injuries, complaints, or referrals, and were allowed to remain in VPP even
though they were cited for serious, willful, and/or repeat violations of safety and health
standards (Finding 2). Also, 200 participants (11 percent) were not evaluated timely to
ensure they maintained exemplary systems and some of the evaluations had still not
been performed a year past the reevaluation due date (Finding 3).

Moreover, OSHA had data reliability issues that impacted tracking the entry into and exit
from the program, as well as reevaluations. OSHA could not identify the universe of
participants or applicants because it tracked VPP data in at least 11 different databases
that were not reconciled; and data ranged between 1,743 to 1,859 for participants, and
19 to 274 for applicants (Finding 4). OSHA used injury and illness data for the
reevaluation process and to report on overall program successes, but did not ensure the
information was reliable. For a judgmental sample of 63 onsite evaluations,
38 (60 percent) reported injury and illness rates that differed significantly (more than
50 percent) from data based on employers annual self-assessment reports (Finding 5).

In 2009, GAO issued a report on VPP entitled: OSHA’s Voluntary Protection Programs
Improved Oversight and Controls Would Better Ensure Program Quality (report number
GAO-09-395, May 20, 2009). GAO reported OSHA’s internal controls were not sufficient
to ensure that only qualified worksites participate in the VPP. While OSHA has taken
steps to address GAO’s recommendations, the VPP control processes need additional
improvements to ensure participants maintain exemplary occupational safety and health
systems that fully protect employees from injury and illness. The areas needing
additional improvements are discussed in detail in the findings below.

Finding 1 — Policy allowed participants with injury and illness rates higher than
            industry averages to remain in VPP for up to 6 years

VPP policy allowed participants to remain in the program for up to 6 years, even though
they did not fully protect employees from work-related injuries and illnesses. The VPP
manual allows OSHA 3 to 4 years 2 before requiring program managers to take action on
participants with injury and illness rates higher than industry averages, and then another
2 years for the rate reduction plan. OSHA did not provide justification for waiting 3 years
to take action on participants with rates higher than industry averages and allowing
participants to remain in the program for up to 6 years before withdrawal or termination.
Moreover, OSHA did not have adequate controls to ensure that participants with high
rates were remediated as required.

1
 See Finding 4 for our reconciliation of OSHA data to determine the total number of participants.


2
 The condition of “high injury and illness rates” is determined using a 3 year rate comparison. The rates are from 3 

consecutive years for larger participants, or the 3 lowest rates from 4 consecutive years for smaller participants. 

Therefore, it could take 3 to 4 years to determine whether a participant has high injury and illness rates.



                                                                                                   OSHA VPP
                                                           5                      Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General



For FY 2012, we found 9 percent of participants (157 of 1,834) had injury and illness
rates higher than the averages for their industries. Of 157 participants with high rates,
108 had rates higher than their industry averages for the most recent 3 years, while
another 49 had higher rates for the most recent 2 years. Generally, OSHA followed
policy by taking action on participants with high rates for 3 years and no action on those
with high rates for 2 years. However, OSHA could not justify how its policy (no action for
3 years and allowing high-rate participants to remain in the program up to 6 years)
corresponds with VPP’s purpose – to recognize worksites with exemplary safety and
health management systems. Moreover, the actions required under the policy were not
always taken because offices did not comply with the requirements or because
inconsistencies in data between the National Office and regional offices were not
addressed.

Although OSHA explained why it is using a 3-year average (discussed below), it did not
demonstrate how this is consistent with the purpose of the program. OSHA uses the
average industry injury and illness rates as the benchmark to judge how well a worksite
is protecting its employees. Trends of increasing rates, particularly those above industry
averages, are signs that participants are not maintaining VPP-quality systems.
However, OSHA policy allows worksites to keep the VPP designation and benefits, such
as exemption from programmed inspections for up to 6 years, even though they may
not be maintaining VPP-quality systems.

OSHA’s policy and participants with high rates are discussed in the two sections below.
Inconsistencies in data between National Office and regional offices are discussed in
Finding 5.

      VPP Policy

      According to the VPP manual, OSHA reviews the participant’s injury and illness
      rates during selection, reevaluation, and monitoring through the review of the
      VPP Participant Annual Self-Evaluation. If the VPP Manager notices a significant
      increase or decrease in the rates, they may request an explanation from the
      participant, but the manual does not require remediation actions until the
      participant’s 3-year average rates exceed industry averages.

      The 3-year rate comparison has been in place since 2003 when OSHA changed
      the benchmark injury and illness rate comparison due to substantial fluctuations
      from year to year in industry rates that may not fairly represent the injury and
      illness situation in an industry. OSHA also explored other ways to address this
      situation before deciding to change the injury and illness rate comparison. OSHA
      acknowledged that this change might have the effect of reducing somewhat the
      weight assigned to injury and illness rates in VPP, but believed that it will have
      the greatest impact on those industries that show significant injury and illness
      rate variation year to year. OSHA officials noted that the use of a three-year


                                                                                OSHA VPP
                                            6                  Report No. 02-14-201-10-105
                                                  U.S. Department of Labor – Office of Inspector General


         average in evaluating a worksite’s injury and illness rates is included in other
         agency policies and procedures outside of VPP.

         The manual requires that the participant’s 3-year Total Case Incident Rate
         (TCIR) or Days Away, Restricted and Transferred (DART) rate must be below at
         least 1 of the 3 most recent years of specific industry national averages as
         published by the Bureau of Labor Statistics (BLS). An alternative rate calculation
         may be used for eligible smaller participants3 using their lowest 3 of the most
         recent 4 years of injury and illness rates. The TCIR represents the number of
         recordable injuries and illness cases and DART, a subset of TCIR, represents
         the number of cases resulting in days away from work, restricted work activity, or
         job transfer. Both rates are compared to the highest BLS rates from the most
         recent 3 years.

         When a participant’s 3-year TCIR or DART rate exceeds the BLS rates, the
         participant is placed on a 2-year rate reduction plan if the rates can statistically
         and realistically be reduced below the industry average. If the rates cannot be
         reduced below industry averages, or after 2 years on a rate reduction plan the
         rates have not decreased below BLS averages, the participant will be asked to
         withdraw or will be terminated from the program. Therefore, a participant may
         remain in the program for up to 6 years even though its rates exceed the BLS
         average – 3 years for larger participants or 4 years for smaller participants before
         action is taken, and then 2 years under a rate reduction plan.

         Participants with Injury and Illness Rates Higher Than the Average for Their
         Industries

         Based on OSHA’s data compilation, 108 participants had 3-year TCIR or DART
         injury and illness rates above the averages for their industries for Calendar Years
         2009 through 2011. After 3 years of higher than industry average injury and
         illness rates, 75 of these participants were placed on 2-year rate-reduction plans4
         and 5 withdrew from VPP. For 80 participants, OSHA complied with VPP policy.
         Also according to policy, 75 of the 80 participants could have rates higher than
         industry averages and remain in the program for up to 6 years.

         However, for the remaining 28 participants, either OSHA did not document that
         any actions were taken or it acknowledged the participants with rates higher than
         industry averages were not placed on rate-reduction plans as required. For 22 of
         these participants, inconsistencies in data between the National Office and
         regional offices were not addressed. When presented with the National Office
         data, the sampled regional offices stated that they disagreed with the data, while
         the National Office affirmed that the data was correct. With the regions not

3
  The manual defines smaller participants as those with less than 250 employees at the worksite and under 500 

employees companywide.


4
  Another 3 participants were placed on rate-reduction plans in March 2013, when the 2012 injury and illness rates


were reported. OSHA allowed the participants 4 years before action was taken.



                                                                                                   OSHA VPP
                                                          7                       Report No. 02-14-201-10-105
                                       U.S. Department of Labor – Office of Inspector General


       complying with VPP policy and data inconsistencies, OSHA does not have
       sufficient controls to ensure that the regions were taking the required actions on
       participants with rates above industry averages. As a result, some participants
       that did not meet a key requirement of the VPP have remained in the program.
       (See Finding 5 of this report for more information on the reliability of the injury
       and illness data.)

       Moreover, another 49 participants had 2-year TCIR and/or DART injury and
       illness rates above the averages for their industries for Calendar Years 2010 and
       2011. According to the VPP manual, the regions are not required to take any
       action until a participant’s 3-year rate is above the industry average. However,
       regions may take action if they notice any unusual trends in injury and illness
       rates as reported in the annual participant self-evaluations.

OMB Circular A-123 states that control activities should include policies, procedures,
and mechanisms to help ensure that agency objectives are met. We believe that OSHA
has not demonstrated that its policies help to ensure that the objectives of the VPP
program are met. The fact that companies are allowed up to 6 years to correct their
higher rates raises serious questions as to whether these companies are fully protecting
their workers. Further, OSHA’s controls did not ensure that the appropriate actions were
taken to address participants with high rates or that reevaluation and monitoring were
sufficient to ensure only participants with exemplary systems that fully protect their
employees are in the program.

Finding 2 — Participants with serious violations of safety and health standards
            remained in VPP

When participants are inspected, policy requires VPP managers in the regional offices
to keep informed on the inspection status and to follow up with participants after the
inspection is closed. Once inspections are completed, the policy allows regional office
discretion in determining the type and extent of follow-up actions to take. However, VPP
policy does not require OSHA to determine the underlying causes for why participants’
systems did not protect employees, and whether OSHA’s reevaluation processes could
have, but did not identify deficiencies in the participant’s systems. As a result, OSHA did
not utilize this opportunity for “lessons learned” to ensure the program was operating as
intended, its processes were effective, and it continuously improved.

Between October 2008 and September 2012, 4 percent of participants (79 of 1,834)
were inspected by OSHA and cited with serious violations of safety and health
standards after incidents involving fatalities or catastrophic injuries, or due to complaints
or referrals. Once the inspections were closed, VPP managers generally followed up
with participants as required by policy, but the extent of follow-up varied significantly
with onsite visits conducted at only 34 percent of participants. As of April 2013, 55 of 79
participants (70 percent) remained in VPP with no change in status. However, follow-up
did not include analyzing whether OSHA’s evaluation processes should be improved or
requirements for participants’ health and safety systems should be enhanced.

                                                                                 OSHA VPP
                                              8                 Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General



Participant follow-up and analysis for continuous improvement are discussed in the two
sections below.

      Follow-up on Participants with Inspections

      OSHA provided the following information and comments on the 79 participants
      inspected and cited with serious violations after incidents involving fatalities or
      catastrophic injuries or due to complaints or referrals.

          •		 For 38 participants, the regions reviewed case files, placed phone calls, or
              interviewed Area Directors who conducted the inspections. As a result, 12
              participants withdrew or were terminated from VPP, and 26 continued in
              VPP with no change in status.

          •		 For 27 participants, the regions conducted or planned to conduct site
              visits, conducted inspections, or placed the participants on conditional
              status. As a result, 3 participants withdrew from VPP, 2 were placed on
              conditional status, and 22 continued in VPP with no change in status.

          •		 For 14 participants, OSHA did not provide information on the specific
              follow-up performed, but indicated that 7 of these participants withdrew or
              termination was pending. Therefore, 7 participants continued in VPP with
              no change in status.

      In total, 55 participants remained in VPP with no status change, while
      22 withdrew, were terminated, or were pending termination, and 2 were placed
      on conditional VPP status.

      According to the VPP manual, participants are exempt from program inspections,
      but an inspection is conducted when OSHA is notified of fatalities, catastrophes,
      or other events such as complaints and referrals. The National Office and
      program managers are notified when inspections are performed. When the
      inspection is closed, the VPP Manager and Regional Administrator must assess
      whether deficiencies in the participant’s safety and health management system
      led to the event, and use their professional judgment to determine which course
      of action to pursue. These actions include placing phone calls to the participants
      to obtain assurances that management is committed to and still qualified to
      remain in VPP, conducting an onsite evaluation, or withdrawal or termination
      proceedings if the participant no longer meets the requirements of VPP.

      Subsequent to the audit period, OSHA issued additional guidance regarding
      inspections at participants – VPP Policy Memorandum #7: Further Improvements
      to the Voluntary Protection Programs (VPP), effective May 29, 2013. OSHA
      officials said, “…implementation of this new policy will identify and address
      enforcement issues at VPP sites in a more timely and consistent fashion.” The

                                                                                OSHA VPP
                                            9                  Report No. 02-14-201-10-105
                                                  U.S. Department of Labor – Office of Inspector General


           Policy stipulates when a fatality or catastrophe triggers an inspection, the
           participant’s VPP status will be changed within 10 days to "Inactive Pending
           Fatality/Catastrophe Inspection,” and will be reflected in all print and electronic
           materials, including OSHA’s website and tracking systems.

           Analyzing Participants with Inspections to Improve VPP

           According to OSHA, the principle of continuous improvement is well-established
           within VPP. As described above, OSHA followed up on participants with
           inspections to ensure hazards were abated and they remained committed to
           VPP. However, the National Office did not determine the underlying causes why
           the participants’ health and safety systems did not fully protect employees and
           whether OSHA’s evaluation processes should have, but did not identify timely the
           deficiencies in the systems. OSHA could utilize the “lessons learned” to improve
           the quality of participants’ health and safety systems, and OSHA’s reevaluation
           process.

           In the 2009 Federal Register notice on revisions to VPP, OSHA provided the
           following:

                   Continuous improvement is a well-established principle of VPP.
                   Participants strive to make ongoing gains in performance and
                   protective systems, and OSHA strives to improve the VPP, its
                   policies and procedures, and its impact on workplaces throughout
                   the United States. 5

           According to the VPP manual, “…approval into VPP is OSHA’s official
           recognition of the outstanding efforts of employers and employees who have
           created exemplary worksite safety and health management systems.” However,
           at some point, the systems may have failed – resulting in fatalities, injuries,
           complaints and referrals that triggered the inspections. Moreover, the participants
           were cited with serious violations of standards such as process safety
           management of highly hazardous chemicals, respiratory protections,
           safeguarding personal protections, and/or the general duty clause of the
           Occupational Safety and Health Act (OSH Act). Section 5 of the OSH Act (the
           general duty clause) requires employers to follow OSH Act standards and
           maintain places of employment which are free from recognized hazards that
           cause or are likely to cause death or serious physical harm to employees.

           While OSHA followed up on the specific circumstances of the inspections, it did
           not use the opportunity to identify potential weaknesses in VPP operations and
           policies such as issues with the quality or frequency of onsite evaluations. If the
           worksites with the best safety and health management systems experienced


5
    Federal Register, Volume 74, Number 6, Friday, January 9, 2009, Notices, page 927.

                                                                                                 OSHA VPP
                                                         10                     Report No. 02-14-201-10-105
                                                 U.S. Department of Labor – Office of Inspector General


        problems that result in enforcement actions, then determining why and how VPP
        could be improved could have significant impact on other workplaces.

Finding 3 — Participants were not evaluated in a timely manner.

OSHA’s processes did not adequately ensure it performed onsite visits timely enough to
determine the continuing eligibility of participants for the program, and to identify and
remediate unqualified participants. The VPP manual established guidelines with specific
timeframes for the application and reevaluation processes. OSHA stated it was aware of
the backlog on performing reevaluations, emphasized clearing the backlog to the
regions, and believed it was making substantial progress. However, OSHA’s existing
processes did not effectively ensure the timeliness of onsite visits. As a result, OSHA’s
controls to ensure the continuing eligibility of participants were weakened and the
program was not operating consistently.

Based on the VPP manual, there were nine key milestones for application processing
and five for reevaluations. The manual established specific timeframes for achieving
half the milestones, but did not establish timeframes for the other milestones or an
overall timeframe. Using the specific timeframes and in consultation with National Office
staff, we estimated that it could take a year from the time an application is accepted until
it is given final approval, and 6 months from the time a reevaluation starts at the
opening conference to the final decision whether the participant remains suitable for
VPP. 6 OSHA officials agreed that the estimates of 1-year (applications) and 6-months
(reevaluations) were reasonable, and indicators of timely and appropriate processing of
applications and reevaluations.

For FY 2012, applications and reevaluations were generally processed within the
timeframes allowed by the VPP manual. 7 However, significant delays were noted in
scheduling onsite visits. These results are discussed in the following two sections.

        Application Process

        Most applications were processed within the 1-year timeframe. However,
        one sampled regional office had applications that took an average of 503 days to
        process through the transmission of their reports to the National Office. The table
        in Exhibit 1 shows application processing timeframe for each key milestone, and
        results from the sampled applications and data analysis for all applications
        processed for FY 2012.

        Accepting the applications is the first milestone with a specific timeframe.
        However, the average application waited for 3 months before it was accepted for
        processing. During this “wait” time, the application may be read, returned for
        edits and changes, and the applicant contacted. Considering that wait time, the

6
  Estimated processing time was rounded up to 12 months (1-year) for application processing and 6 months for


reevaluations to allow for completion of milestones without specific timeframes.


7
  Conclusion based on data analysis and documentation for a sample of 28 applications and 78 evaluations.



                                                                                                 OSHA VPP
                                                        11                      Report No. 02-14-201-10-105
                                U.S. Department of Labor – Office of Inspector General


average application processing was completed 14 months after the application
was received by OSHA. One sampled region had a significant backlog of
applications resulting in an average wait time of 687 days before processing.

OSHA officials stated that the timeliness of application processing continues to
be of concern. OSHA began implementing a variety of possible solutions to
better target its limited resources, such as increasing the number of Special
Government Employees used during onsite visits. However, OSHA has not
considered establishing a specific timeframe between the receipt and acceptance
of an application because timeframes may vary by region based on the number
of applications received, the size and complexity of the worksite and application,
and the regional resources available to review the application.

Reevaluation Process

Reevaluations were generally processed within the 6-month timeframe. However,
26 reevaluations (12 percent) took longer: 14 took between 6 and 9 months, and
12 took between 9 and 15 months. The table in Exhibit 2 shows reevaluation
processing time for each key milestone.

National data showed 200 active participants (11 percent) that should have been
evaluated before September 30, 2012, but there was no record of an onsite
evaluation or that the participant had withdrawn from VPP. The VPP manual
established specific timeframes (ranging from 12 to 60 months) for when onsite
reevaluations should be scheduled based on type and duration of VPP
participation. These onsite visits were potentially overdue by an average of
449 days. Of the 200 active VPP participants, OSHA’s National data showed that
138 (8 percent) were overdue by at least 6 months and 91 (5 percent) were
overdue by at least 1 year. However, in response, OSHA provided additional
information that was not captured in its National data:

   •		 74 participants were either evaluated after the due date and/or have
       "issues/holds" for a specific reason as allowed by policy.
   •		 11 participants withdrew or were terminated from VPP.
   •		 6 participants’ onsite evaluations were completed before the due date, but
       the evaluation report was not issued until after the due date.

Based on our review of this information, 11 participants were either reevaluated
timely or withdrew from VPP prior to the reevaluation due date, and therefore
OSHA complied with its policy. As previously noted, this information was not
reflected in the National data for FY 2012. This is consistent with the other data
reliability issues cited in the report. However, even after making adjustments to
the National data, this still leaves 127 (7 percent) that were overdue by at least 6
months.



                                                                          OSHA VPP
                                     12                  Report No. 02-14-201-10-105
                                                   U.S. Department of Labor – Office of Inspector General


OSHA stated that in FY 2013, it made significant strides in addressing the backlog of
VPP reevaluations and reapproved more than 250 sites, but resource limitations and
sequestration have negatively impacted this effort. Delays in scheduling reevaluations
and backlogs of applications are likely to worsen due to sequestration and other budget
constraints. OSHA officials commented that VPP travel was limited to local travel for
half of FY 2013 and a number of onsite visits were postponed, and that budget
constraints may result in additional processing delays in FY 2014 and onward.

Finding 4 — OSHA did not maintain reliable data for applicants and participants

To track and monitor VPP participants and applications, OSHA used at least 11 different
databases – one for the National Office and one in each of 10 regional offices – but did
not reconcile the data. 8 The national database is the official database for VPP and was
used primarily to report program results and respond to information requests from
Congress, the media, and individuals under the Freedom of Information Act. Regional
offices maintained their own data because they asserted the national database did not
contain all data fields necessary for their program management, and was subject to
errors and significant lags in updating essential data. Through our audit testing, we
verified the regional offices’ assertions about the national database, but also found that
regional databases had similar issues. The 11 databases also had differences in the
fields collected, different interpretations for the same date fields, and timing differences
on when the data was entered in the systems. As a result, OSHA could not ensure that
VPP data was valid and complete. Without quality data, OSHA cannot ensure all
participants are monitored and reevaluated timely.

Specific results on data quality for active participants and applications are discussed in
the following two sections.

         Active Participants 9

         For FY 2012, national data showed 1,820 participants were active in the program
         while regional data identified 1,779 participants. Based on our reconciliation
         summarized below, total active participants for FY 2012 were estimated at 1,834.
         Both national and regional data were missing records of active participants and
         included invalid records where the participants had been misidentified as active.




8
  Some area offices also maintained data separately, but this audit did not include those systems.


9
  Active participants included all participants with VPP status at any point of FY 2012 including new approvals, and 

terminations or withdrawals during the year.



                                                                                                    OSHA VPP
                                                          13                       Report No. 02-14-201-10-105
                                                   U.S. Department of Labor – Office of Inspector General


                              Reconciliation of Active Participants from
                              National and Regional Data for FY 2012
                                                                 National      Regional
                              Description                            Data          Data
                              Records provided                      1,820         1,779
                              Missing records                         +28           +59
                              Invalid records                         -14            -4
                              Active VPP participants               1,834         1,834

         In total, 87 participants (5 percent) had missing records – 28 from national data
         and 59 from regional data. Another 18 participants (1 percent) had invalid
         records – 14 from national data and 4 from regional data. Weak controls over this
         data could lead to participants not being properly monitored or inappropriately
         exempted from program inspections.

         Applicants

         National data listed 141 potential VPP participants with applications in inventory
         at any point of FY 2012, while regional data listed 152 applicants. Although the
         totals vary by 7 percent, the differences are more extensive to the point that the
         number of applications in inventory could not be reasonably estimated. Only
         19 applicants were in both national and regional data, while combined data listed
         232 applicants.

                      Applications in Inventory at Any Point of FY 2012
                      from National and Regional Data
                                                        National      Regional        In Both
                                                                                              10
                      Description                           Data          Data      Data Sets
                      All Applications                       141           152             19
                      Disposition at Year End
                          In Inventory                         130            50              3
                          Withdrawn by Applicant                 2            34              6
                          Accepted by OSHA                       9            68             10

         We also noted the following issues that could have been identified through
         management review and data reconciliation:

             •		 National data included 52 applicants that had been approved for VPP
                 participation prior to FY 2012, and should no longer have applications in
                 inventory. Almost all of these participants were identified using national
                 data by comparing applications and active participants.

             •		 National data contained 59 applicants pending approval whose
                 applications were received in FY 2010 or earlier. Although OSHA had not
                 established an overall timeframe for processing applications, officials

10
  For counts of applicants in both data sets, regional data was used to identify the disposition category in which to
count the applicant – “In Inventory,” “Withdrawn by Applicant,” or “Accepted by OSHA.”

                                                                                                    OSHA VPP
                                                          14                       Report No. 02-14-201-10-105
                                                 U.S. Department of Labor – Office of Inspector General


                  stated that one year would be a reasonable estimate for processing time.
                  Based on national and regional data, OSHA generally processed
                  applications within 14 months from the time the application was received
                  through final decision on participation. Therefore, these applications
                  probably should not still be in inventory after 2 years or more, but the
                  national data did not have any information on the disposition of these
                  applications.

             •		 Most participants were not initially tracked as applicants. For all years
                 contained in the database, national data listed a total of 3,604 participant
                 records, but only 745 applicant records.

         Weak controls over this data could lead to concerns regarding the timeliness of
         application processing or lack of follow-up on applications that remain in
         inventory for more than two years. Officials stated that effective October 2012
         (FY 2013), the National Office reiterated the VPP policy for regions to submit a
         VPP Monthly Activity Log. The log contains information on all applications in the
         region, application status and significant dates such as received, read, and
         accepted. Officials stated that the national office data has been updated based
         on application information on the FY 2013 activity logs.

Officials acknowledged that the national database needed improvements, but OSHA
had not dedicated the necessary resources to improve the data as the system was to be
replaced by OIS, the new OSHA Information System. Officials agreed that absent the
replacement of the national system, more rigorous and routine reconciliation of national
and regional data would be required. Officials stated that the National Office would work
with the regions to develop protocols to improve the completeness of the national data
and would implement these protocols, effective October 1, 2013 (FY 2014).

Finding 5 — Reported program success in reducing injury and illness rates were
            not based on reliable data.

OSHA used injury and illness data to monitor participants and report on program
successes, but did not ensure the information was reliable. For example, in
congressional testimony as well as on its webpage, OSHA included the statistic that the
average VPP participant had injury and illness rates that were 52 percent below the
average for its industry. 11 However, we found significant differences between the rates
used to develop the statistics, and the injury and illness rates for the same period as
reported on the participants’ annual self-assessments and OSHA’s onsite reevaluations.
OSHA compiled the statistic from employers’ annual self-assessment reports but did not
reconcile the information with onsite evaluation results. As a result, OSHA’s data was
not reliable and could not be used to support performance results.

11
  Statistics can be found on OSHA’s website at https://www.osha.gov/dcsp/vpp/success_stories.htm. Also, the
statistics were included in the Deputy Assistant Secretary’s testimony at the June 28, 2012, hearing “Promoting Safe
Workplaces through Voluntary Protection Programs” before the U.S. House of Representatives, Subcommittee on
Workforce Protections, Committee on Education and the Workforce.

                                                                                                  OSHA VPP
                                                         15                      Report No. 02-14-201-10-105
                                         U.S. Department of Labor – Office of Inspector General



GAO’s 2009 report on VPP criticized OSHA for not making sufficient use of the injury
and illness information because it was mostly maintained in the regional offices, and not
sent to the National Office. Also, GAO reviewed injury and illness rates for Calendar
Years 2003 through 2007 and found discrepancies for 35 percent of sampled
participants between the rates on the participants’ annual self-assessment reports and
rates noted in OSHA’s onsite reevaluation reports for the same time periods. 12

Subsequent to GAO’s report, OSHA’s National Office started compiling injury and
illness rate information from employer self-assessment annual submissions to the
regional offices. Regional offices enter the injury and illness rates from the self-
assessments into spreadsheets which are consolidated by the National Office into their
compilation. According to OSHA officials, the results of this compilation were used in a
variety of OSHA presentations throughout the year. However, the officials stated there
were no written policies for evaluating the injury and illness information in the
compilation.

Although the National Office affirmed the data on the compilation was correct, regional
offices disagreed with some rates in the compilation and we found differences when
comparing the compilation rates to other documents. As discussed in Finding 1, the
regional offices disagreed with the compilation data for 22 of 28 participants where
either OSHA did not document any actions were taken or it acknowledged the high-rate
participants were not placed on rate-reduction plans as required. For a judgmental
sample of 78 participants with reevaluations, 77 had data on the National Office
compilations for Calendar Years 2010 and 2011. For the 77 participants, we compared
the compilations’ injury and illness rates to the participants’ self-assessment annual
submissions and to OSHA onsite reevaluation reports and found the following.

      •		 For 63 participants, OSHA’s onsite evaluation reports were available. We
          compared the information in the compilation to the data contained in OSHA’s
          onsite evaluation reports and found the rates were different for 43 participants
          (68 percent), and for 38 participants (60 percent), the rates differed by 50 percent
          or more.

      •		 For 69 participants, their annual self-assessment reports were available. We
          compared the information in the compilation to data on the self-assessment
          reports and found the rates were different for 55 participants (80 percent), and for
          31 participants (45 percent), the rates differed by 50 percent or more.

Officials explained that some differences may be due to timing. When regional offices
submit the onsite reevaluation reports, the National Office reviews the reports and
updates data in the compilation if differences in the rates are identified. However, the
reported statistic is not recalculated.


12
     GAO Report #GAO-09-395.

                                                                                   OSHA VPP
                                               16                 Report No. 02-14-201-10-105
                                        U.S. Department of Labor – Office of Inspector General


Collectively, these differences may impact the “52 percent below average” statistic
reported by OSHA. Moreover, as discussed in Finding 1, these differences affect
operations as OSHA cannot be sure the regions were taking the required actions on
participants with rates higher than industry averages. Therefore, weak controls over
injury and illness data bring into question the reliability of reported program successes
and effectiveness of program operations.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Occupational Safety and Health:

   1. Reevaluate the policy of allowing worksites with high injury and illness rates to
      stay in VPP for up to 6 years to ensure that only employers who operate systems
      which meet the objective of the VPP program are allowed to participate.

   2. Improve data reliability by using one database with appropriate information
      controls, or implement processes ensuring reconciliations of VPP databases are
      conducted regularly and before reports on VPP statistics are generated.

   3. Monitor implementation of VPP Memorandum #7 to ensure sites with fatalities
      and enforcement actions are addressed consistently and timely.

   4. Establish a system to analyze inspection information for continuous improvement
      of VPP.

   5. Establish a control to monitor whether sites with higher than industry average
      injury and illness rates are consistently and timely addressed within VPP.

   6. Develop and implement processes and priorities that will ensure participants are
      evaluated timely for continuing eligibility for VPP. In developing these processes
      and priorities, OSHA should evaluate all viable options to ensure that the integrity
      of the program is maintained given the constraints of its available resources.

   7. Ensure reliable injury and illness data are used to report VPP successes tied with
      injury and illness statistics.

We appreciate the cooperation and courtesies that OSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit


                                                                                  OSHA VPP
                                             17                  Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
               18                  Report No. 02-14-201-10-105
             U.S. Department of Labor – Office of Inspector General




Exhibits






                                                       OSHA VPP
                  19                  Report No. 02-14-201-10-105
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                      OSHA VPP
                 20                  Report No. 02-14-201-10-105
                                          U.S. Department of Labor – Office of Inspector General


                                                                                          Exhibit 1
Application Processing Timeframe and Results

The following table shows the application processing timeframe and results for the
number of elapsed days to reach the next key milestone in the application process. For
example, there was no specified timeframe for the number of days between the date the
application was received and it was accepted for processing, but actual results for
FY 2012 were an average of 76 days (according to sample results) and 105 days
(according to universe of data). Regional data was used for milestones between the
date the application was received (“Application Received”) through to the date of the
Regional Recommendation. National data was used for the National Office review and
the Assistant Secretary approval of the participant for VPP status (“Approval”).


         Key Milestones in Timeline for    Timeframe per    Actual Results   Actual Results
               Application Processing       VPP Manual       for Sample       for Universe
                   Application Received
                                            Not specified      76 days         105 days
                   Application Accepted
                                             180 days         118 days          97 days
                        Onsite Opening
                                            Not specified       3 days           3 days
                         Onsite Closing
                                              90 days         533 days         107 days
                   90-day Items Cleared
                                            Not specified        N/A             4 days
                     Report Completion
                                              30 days          15 days          26 days
             Regional Recommendation
                                              10 days          52 days          83 days
                 National Office Review
                                            Not specified       5 days           4 days
                              Approval
                                             310 days         802 days         429 days
                      Total Processing     rounded up to       or about         or about
                                            12 months        27 months        14 months



The timeframe was developed in consultation with OSHA officials from VPP manual
criteria. While some milestones had specific timeframes specified, others did not as
were noted in the above exhibit. Officials agreed that the overall estimated timeframe of
1-year for application processing was reasonable, and an indicator of timely and
appropriate processing. For consistency of presentation, the timeframes were converted
from months to days by multiplying by 30.




                                                                                    OSHA VPP
                                                21                 Report No. 02-14-201-10-105
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                      OSHA VPP
                 22                  Report No. 02-14-201-10-105
                                          U.S. Department of Labor – Office of Inspector General


                                                                                         Exhibit 2
Reevaluation Processing Timeframe and Results

The following table shows reevaluation processing timeframe and results for the number
of elapsed days to reach the next key milestone in the reevaluation process from the
onsite opening conference (“Onsite Opening”) through to the regional report with the
decision on VPP status (“Regional Report with Decision”). For example, there was no
specified timeframe for the number of days between the onsite opening and closing
conferences, but actual results for FY 2012 were an average of 4 days (according to
sample results) and 7 days (according to the universe). Regional office data was used
for all actual results.


        Key Milestones in Timeline for    Timeframe per    Actual Results   Actual Results
            Reevaluation Processing        VPP Manual       for Sample       for Universe
                       Onsite Opening
                                           Not specified       4 days           7 days
                        Onsite Closing
                                             90 days          94 days          77 days
                  90-day Items Cleared
                                             30 days          60 days          41 days
                    Report Completion
                                           Not specified     119 days          53 days
          Regional Report with Decision
                                             120 days        277 days         178 days
                     Total Processing      rounded up to      or about         or about
                                             6 months        9 months         6 months



The timeframe was developed in consultation with OSHA officials from VPP manual
criteria. While some milestones had specific timeframes specified, others did not as
were noted in the above exhibit. Officials agreed that the overall estimated timeframe of
6-months for reevaluation processing was reasonable, and an indicator of timely and
appropriate processing. For consistency of presentation, the timeframes were converted
from months to days by multiplying by 30.




                                                                                    OSHA VPP
                                               23                  Report No. 02-14-201-10-105
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                      OSHA VPP
                 24                  Report No. 02-14-201-10-105
               U.S. Department of Labor – Office of Inspector General




Appendices






                                                         OSHA VPP
                    25                  Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
               26                  Report No. 02-14-201-10-105
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

OSHA offers cooperative programs, such as VPP, to allow businesses, labor groups,
and other organizations to work with OSHA to help prevent fatalities, injuries, and
illnesses in the workplace. For VPP, the applicant submits information to OSHA on its
safety and health management system and opens itself to agency review. OSHA’s
verification includes an application review and onsite evaluation by a team of safety and
health experts to assess the applicant’s compliance with performance-based criteria for
a managed safety and health system. Approval into VPP is OSHA’s official recognition
of the outstanding efforts of employers and employees who have achieved exemplary
occupational safety and health.

OSHA formally announced the VPP and approved the first site in 1982 and allowed
Federal worksites to be eligible in 1998. OSHA approves qualified participants to one of
3 program levels:

      1.		 Star: Demonstrated exemplary achievement in the prevention and control of
           occupational safety and health hazards through the development,
           implementation, and continuous improvement of their safety and health
           management systems.

      2.		 Merit: Developed and implemented good safety and health management
           systems, but who must take additional steps to reach Star quality.

      3.		 Demonstration: Operated effective safety and health management systems
           that differ from current VPP requirements. This program enables OSHA to
           test the efficacy of different approaches.

Once approved for VPP participation, a worksite is exempted from OSHA programmed
inspections as long as it complies with program requirements and maintains exemplary
systems. To ensure participants maintain exemplary systems, OSHA evaluates
worksites during the selection, reevaluation and monitoring processes. These three
processes are described in detail below.

      Selection Process

      OSHA accepts applications from owners and officials who control site operations
      and have ultimate responsibility for assuring safe and healthful working
      conditions. Applications are accepted from private sector general industry,
      maritime and construction employers, and from Federal agencies. Applications
      may be site-based (specific for one location) or within a specific designated
      geographic area for mobile workforce (employees move from location to location
      or are resident contractors at multiple locations) and corporate (large
      organizations with multiple facilities).


                                                                                OSHA VPP
                                           27                  Report No. 02-14-201-10-105
                               U.S. Department of Labor – Office of Inspector General


Applicants must meet a number of requirements, such as having an active safety
and health management system which includes four essential elements –
management leadership and employee involvement, worksite analysis, hazard
prevention and control, and safety and health training. This system covers all
employees, contractors, and sub-contractors while on site. Additionally,
applicants must have injury and illness rates that are below industry averages
(Star) or establish goals for lowering the rates to below industry averages (Merit)
within two years. Once the application is accepted for processing, an onsite
review is conducted to: ensure the applicant’s safety and health management
system has the four elements in place, determine how well the system is
working, verify injury and illness rates, interview employees and management,
and walk through the facilities. The application process is summarized below.

1.		 Application Received: Regional offices receive applications and review the
     documents for completeness. Applicants are notified about missing items,
     and then may withdraw the application or provide additional information.
     There is no standard timeframe for this part of the process.

2.		 Application Accepted: Once an application is considered complete, the VPP
     Manager performs a technical review of the document for VPP requirements,
     officially “accepts” the application, and schedules an onsite evaluation. This
     step must be completed within six months of the date the application was
     accepted.

3.		 Onsite Evaluation: The Evaluation Team is comprised of trained safety and
     health professionals from OSHA and VPP participants (Special Government
     Employees). Team composition varies depending on the size and complexity
     of the applicant’s worksite, and the availability of qualified team members.
     During the onsite evaluation, the team conducts walkthroughs of operations,
     interviews management and employees, reviews employee medical records,
     and recalculates injury and illness rates. The team evaluates the
     comprehensive safety and health management system to ensure that each
     element and sub-element is in place and active. A process safety review is
     also required at all worksites producing or using highly hazardous chemicals.
     The applicant is given 90 days to correct any hazards identified by the team
     (“90-Day Items”). If the applicant does not meet VPP requirements, the team
     recommends withdrawal.

4.		 Evaluation Report: The Evaluation Team Leader (usually the VPP Manager)
     ensures that “90-Day Items” are corrected and prepares the VPP Evaluation
     Report recommending the applicant for Star, Merit, or Demonstration
     participation. The report must be prepared within 90 days of the closing
     conference of onsite evaluation. The Assistant Regional Administrator and/or
     Regional Administrator must review the completed report and send it to
     OSHA’s National Office within 30 days. The National Office performs a
     technical and editorial review of the report, notifies VPP Manager if changes

                                                                         OSHA VPP
                                     28                 Report No. 02-14-201-10-105
                                U.S. Department of Labor – Office of Inspector General


   are needed, and prepares the final recommendation package for Assistant
   Secretary.

5.		 Final Approval: The Assistant Secretary grants the final approval and signs a
     Congratulatory Letter which is mailed with the VPP report to the newly
     approved participant. To recognize initial achievement, OSHA awards a
     plaque and flag to new participants which may be presented at a formal
     award ceremony.

Reevaluation Process

After approval, participants must be reapproved at specific intervals to ensure
they maintain the requirements of the program: Star (every 3 to 5 years), Merit
(every 18 to 24 months), and Demonstration (every 12 to 18 months).
Reevaluations are conducted based on prior approval level of VPP participation
and the duration at that level. The following table summarizes frequency of
reevaluations based on program type:

       VPP Participation Level and            Starting point for        Allowed Months
       Duration                               measurement               to Next Onsite
       Star - First reevaluation              prior onsite approval          30 to 42
       Star - Subsequent reevaluation         prior onsite done                    60
       Star Conditional                       prior onsite approval                15
       Merit - First reevaluation             prior onsite approval          18 to 24
       Merit - Subsequent reevaluation        first approved at merit              36
       Star Demonstration                     prior onsite done              12 to 18

Conducting the onsite evaluation and preparing the report are similar to steps in
the application process. In addition, the evaluation team reviews the most recent
participant self-evaluation report and verifies the accuracy of the reported data by
recalculating injury and illness rates.

The Regional Administrator is responsible for re-approving Star and Merit
participants and placing Star participants on 1-Year Conditional status. The
regional office mails re-approval letter to participants, but the VPP Manual does
not specify the timeframe for mailing these letters. The Assistant Secretary is
responsible for all other decisions such as lifting the 1-Year Conditional status,
Merit to Star level, and withdrawals.

Monitoring Process

Monitoring processes include review of the participant’s annual self-evaluation,
follow up on participants with inspections, and other oversight activities to
determine whether the participant continues to be eligible for the program
between onsite reevaluation visits. These three areas are discussed below.



                                                                                OSHA VPP
                                         29                    Report No. 02-14-201-10-105
                                 U.S. Department of Labor – Office of Inspector General


1.		 Annual Self-Evaluation: The participant prepares and submits by
     February 15 an annual self-evaluation report on their VPP program and
     identifies program successes, areas needing improvement, and progress
     towards Merit or 1-Year Conditional goals (if applicable). The report includes
     injury and illness rates for the participant and its contractors which are
     compared to their industry’s National average rates published by the Bureau
     of Labor Statistics (BLS). OSHA regional offices review the reports for
     indications of system weaknesses, and trends in injury and illness rates.
     Regional offices also compile data from the reports and submit it to the
     National Office for the injury and illness rate compilation.

2.		 Participants with Inspections. The National Office and program managers
     are notified when an inspection is conducted due to fatalities, catastrophes, or
     other events such as complaints and referrals. When the inspection is closed,
     the VPP Manager and Regional Administrator must assess whether
     deficiencies in the participant’s safety and health management system led to
     the event, and use their professional judgment to determine which course of
     action to pursue. These actions include placing phone calls to the participants
     to obtain assurances that management is committed to and still qualified to
     remain in VPP, conducting an onsite evaluation, or withdrawal or termination
     proceedings if the participant no longer meets the requirements of VPP.

3.		 Other Oversight Activities. Regional offices also perform other oversight
     activities to identify participants with potential health and safety issues or for
     changes in management. These monitoring activities are generally ad hoc
     and informal. These activities include use of news agencies, social media,
     emergency alerts and informal dialogs with participants and with enforcement
     and whistleblower investigators.




                                                                           OSHA VPP
                                      30                  Report No. 02-14-201-10-105
                                       U.S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Does OSHA have sufficient controls over the selection, timely reevaluation, and
monitoring of VPP participants?

Scope

The audit examined Federal OSHA’s VPP for FY 2012 (October 1, 2011, through
September 30, 2012), including all participants in the program and applications in
inventory at any point of that period. Fieldwork was conducted at OSHA’s National
Office in Washington, DC, and at a statistical random sample of four regional offices
(New York, NY; Chicago, IL; Kansas City, MO; and Dallas, TX).

The audit did not include applicants and participants in VPP programs operated by
states with OSHA-approved state plans, or an assessment of the data related to those
state programs.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate, evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

In performing the audit, we reviewed OSHA’s policies and procedures, and prior GAO
and OIG reports to gain an understanding of internal controls considered significant to
the audit objectives and testing compliance with Federal standards. In planning and
performing our audit, we considered if internal controls significant to the audit objectives
were properly designed and placed in operation. This included reviewing OSHA’s
policies and procedures for approving and reapproving VPP participants. We confirmed
our understanding of these controls and procedures by conducting interviews and
reviewing documentation.

We assessed the reliability of data for active participants, applicants, reevaluations, and
injury and illness rates to ensure they were appropriate for testing.

   •		 For active participants, we considered the completeness and reliability of the
       national and regional data by performing edit/logic checks. National data was
       compared to data reported on OSHA’s webpage and then compared to regional
       data. Differences noted in the edit/logic checks and in comparison data sets were
       discussed with officials in the National Office and 10 regional offices, and issues

                                                                                 OSHA VPP
                                             31                 Report No. 02-14-201-10-105
                                       U.S. Department of Labor – Office of Inspector General


      were resolved. We reconciled the data, and then concluded the reconciled data
      was sufficiently reliable for testing and this report. The reconciliation process for
      active participants is reported under Finding 4 of this report.

   •		 For applicants, we considered the completeness and reliability of the data by
       performing edit/logic checks on regional and national data. National data was
       compared to regional data and significant differences were found. Differences
       were discussed with officials in the National Office and 4 sampled regional
       offices, but we were unable to reconcile data or ensure it was substantially
       complete. For a statistical sample of applications from the regional database, we
       validated data accuracy by comparing the data to source documentation. While
       the data could not be reconciled, the data in the regional databases was
       substantially accurate. Therefore, we concluded that the regional data on
       applicants was sufficiently reliable to be used for the milestone analysis
       summarized in Exhibit 1. However, the deficiencies with the completeness of the
       application data are reported under Finding 4 of this report.

   •		 For reevaluations, we considered the reliability and completeness of the national
       and regional data. For completeness, we measured the time since the most
       recent onsite evaluation and compared it to time allowed under the VPP manual.
       We performed edit/logic checks for all reevaluations, and compared completed
       reevaluations listed in both data sets. Differences were discussed with officials in
       the National Office and 10 regional offices, and the data found to be substantially
       complete even though the national data only contained the completed
       reevaluations. For a statistical sample of reevaluations, we validated regional
       data accuracy by comparing it to source documentation and found it to be
       substantially accurate. Therefore, regional data on reevaluations was sufficiently
       reliable to be used for the milestone analysis summarized in Exhibit 2.
       Discussion of the overdue reevaluations can be found in Finding 3.

   •		 For injury and illness rates, we considered the completeness and reliability of the
       information contained in the National Office’s compilation. For completeness, we
       compared participants on the compilation to active participant lists. For reliability,
       we used the statistical sample of reevaluations and traced data to source
       documentation (participant annual self-evaluation report) and to injury and illness
       data in the reevaluation report. We found significant differences and concluded
       the data was not sufficiently reliable. Deficiencies with the injury and illness data
       are reported in Findings 1 and 5.

In assessing the effectiveness of controls, we reviewed the VPP manual, documentation
provided by the National Office and sampled regional offices, and interviewed national
and regional officials on the application and reevaluation processes, and any processes
to monitor active participants between formal reevaluations to ensure the participants
maintain exemplary safety and health systems.



                                                                                 OSHA VPP
                                             32                 Report No. 02-14-201-10-105
                                          U.S. Department of Labor – Office of Inspector General


   •		 We reviewed OSHA’s policy related to injury and illness rates and obtained
       documentation regarding usage of a 3-year comparison as the benchmark before
       taking any action against VPP participants. We analyzed injury and illness data
       for participants with 2 or 3 consecutive years of high rates and followed up with
       the National Office and sampled regional offices on remediation actions taken.

   •		 We tested compliance with controls to conduct regular onsite reevaluations of
       participants by calculating the interval since the most recent reevaluation date
       and following up with national office officials regarding overdue reevaluations.

   •		 We researched participants’ inspection histories from FY 2008 through FY 2012
       using OSHA’s online inspection data to determine if participants had recent
       inspections with citations. We confirmed the results with national and regional
       offices, and requested information on follow-up remediation actions taken by the
       regions.

We used a stratified two-stage random sampling plan for sample selection to identify
regional officials to interview (stage 1) and applications and reevaluations to review
(stage 2). Stage 1 – 4 regional offices (Chicago, Dallas, Kansas City, and New York)
were randomly selected out of 10 regions after stratification into 2 sampling pools using
the number of active VPP participants. Stage 2 – for each sampled region, we randomly
selected a combined sample of applications and reevaluations. In total, 106 case files
(28 applications and 78 reevaluations) were selected and tested for the accuracy of
national and regional data. The testing results were not projected due to the number of
errors and concerns regarding data reliability. We confirmed the sample results with
regional officials and used the validated data for Exhibit 1 and Exhibit 2.

           Applications, Reevaluations and Combined for All Regions, and
           the 4 Sampled Regions (Stage 1) – Universe and Sample
           Description                     Applications   Reevaluations   Combined
           Universe – All Regions                   137             335        472

           Universe – 4 Sampled Regions
            Chicago                                 19              75           94
            Dallas                                  21              75           96
            Kansas City                              7              22           29
            New York                                29              33           62
            Total 4 Sampled Regions                 76             205          281

           Sampled Case Files
            Chicago                                  4              31           35
            Dallas                                   9              27           36
            Kansas City                              4               7           11
            New York                                11              13           24
            Total 4 Sampled Regions                 28              78          106

From the random sample of applications and reevaluations, we judgmentally used the
78 reevaluations to analyze injury and illness data. Out of 78 sampled, 1 participant was

                                                                                    OSHA VPP
                                               33                  Report No. 02-14-201-10-105
                                       U.S. Department of Labor – Office of Inspector General


not included on the injury and illness data compilation, 14 onsite evaluation reports and
8 participant annual self-assessment reports were not available. Results for the
63 reevaluations with onsite evaluations reports and 69 reevaluations with
self-assessment reports are presented in the report under Finding 5.

Criteria

   •		     Occupational Safety and Health Act of 1970

   •		     OSHA Directive CSP 03-01-003, Voluntary Protection Programs (VPP): Policies
           and Procedures Manual, and related policy memoranda

   •		     OMB Circular A-123, Management’s Responsibility for Internal Control




                                                                                 OSHA VPP
                                             34                 Report No. 02-14-201-10-105
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

BLS        Bureau of Labor Statistics

DART       Days Away, Restricted, or Transferred

OMB        Office of Management and Budget

OSH Act    Occupational Safety and Health Act of 1970

OSHA       Occupational Safety and Health Administration

TCIR       Total Case Incident Rate

VPP        Voluntary Protection Programs




                                                                             OSHA VPP
                                        35                  Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
               36                  Report No. 02-14-201-10-105
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                                               Appendix D
OSHA Response to Draft Report




      U.S. Department of Labor                  Assistant Secretary for                                ,~·"   ..,
                                                Occupational Safety and Health                    ./                "';.
                                                Washington, D.C. 20210                            -                  -
                                                                                                  ~
                                                                                                   - .,,,, ..  ~
                                                                                                                    ~




              OCT 2 4 2013

         MEMORANDUM FOR:              ELLIOT P. LEWIS
                                      Assistant Inspector General for Audit


         FROM:                        r1.:;1~hD,                   MPH

         SUBJECT:                     Response to OTG's Draft Audit Report No. 02-1 3-203-10-1 05
                                      "The Voluntary Protection Program: Controls Are Not Sufficient
                                      to Ensure Only Worksites with Exemplary Safety and Health
                                      Systems are in the Program"

         This memorandum is in response to your September 13,2013, transmittal of the Oflice of the
         Inspector General (OTG) Audit Report No. No. 02-13-203-10-105, The Voluntary Protection
         Program: Controls Are Not Sufficient to Ensure Only Worksiles with Exemplary Safety and
         Health Systems are in the Program. Thank you for the opportunity to comment on your draft
         report and for addressing some of our concerns with the discussion draft.

        While we acknowledge that there remain some deficiencies and inconsistencies in the
        management of the VPP program, we believe that OSHA is generally following its policies and
        procedures for implementing VPP and that the vast majority of the sites in the program have
        exemplary safety and health management systems. Most of the deficiencies identified in the
        report have been recognized by OSHA and identified in previous evaluations, including the GAO
        Report OSHA's Voluntmy Protection Programs: Improved Oversight and Controls Would Better
        Ensure Program Quality (GA0-09-395, 2009) and OSHA's own internal review completed in
        2011.

        The report makes clear that some deficiencies continue to impact the program. However, the
        agency has made a substantial effort to address them over the last four years, and has
        significantly improved its management of the program. OSHA's most recent action, issuance of
        VPP Memo # 7 (May 20 13), designed to better define immediate and required actions following
        fatalities, catastrophes, and enforcement actions, was noted in the report. The agency issued six
        previous memos and enhanced other areas of its program management beginning in 2009 to
        address inconsistencies and issues raised in the internal and GAO reports.

         OSHA disagrees with a central statistic presented in the report. OIG repeatedly states that 13
         percent of sites did not have systems that fully protected employees' safety and health. This
         includes 4 percent that were cited for serious violations and 9 percent with injury and illness
         rates above their respective industry averages. The vast majority of sites were addressed in
         accordance with OSHA policy. As a result, we believe that OIG's statement about these sites is




                                                                                                    OSHA VPP 

                                                         37                        Report No. 02-14-201-10-105
                                         U.S. Department of Labor – Office of Inspector General




                                                 2

misleading because it is based on the questionable assumption that OSHA policy does not fully
protect workers.

First, by issuing VPP Memo# 7 in May 2013, OSHA has addressed the 4 percent of sites that
were cited for serious violations of OSHA standards. VPP Memo #7 eliminates the referenced
variation in agency action following enforcement activity that was allowable under its previous
policy.

Second, with regard to the remaining 9 percent, OSHA takes issue with OIG's presumption that
simply having average injury and ill ness rates above industry rates, whether for two or three
years, results in VPP participant programs that are not fully protective.

OSHA does not believe that every participant that exceeds the industry average is necessarily
failing to fully protect its workers. OSHA provided its reasoning tor using the 3-year average,
which is included in the report. OSHA believes that given the sensitivity and variation of injury
and illness rates, especially for small businesses, it is better to average rates over a specified
timeframe and provide companies a designated period to correct conditions leading to higher
rates. OSHA policy provides an opportunity for employers with higher rates to address these
instances through the rate reduction plan.

Furthermore, injury and illness rates are only one of many factors that OSHA evaluates during
the approval and reapproval processes, and when reviewing the annual evaluations. VPP sites
have programs and procedures in place that promote employee involvement and assure
notification of hazards and issues in the workplace. While we agree that generally this should
lead to rates that are lower than industry averages, this may not always be the case. In addition,
injury and illness rates are lagging indicators that provide only a partial impression of an overall
program. As a result, we do not agree U1at the review of injury and illness rates alone provides
enough data to support OIG's conclusion that participants with higher than industry average
injury and illness rates do not have systems that fully protect employees. OIG may disagree with
OSHA's policies, and we will review the policies, but OSHA does not believe that it is clear that
the current policy necessarily results in the retention ofVPP participants that do not provide a
fully protective workplace.

OSHA does agree that data integrity and timeliness are issues that we must continue to address.
As noted in our response below, we plan to take the additional steps to improve the program.
OSHA takes seriously fue VPP principle of continuous improvement, which we expect of both
participants and ourselves.

In response to the draft report, please find OSHA's responses to the recommendations.

1. R eevaluate the policy of allowing worksites with high injury and illness rates to stay in
    VPP for up to 6 years.

    OSHA response: OSHA believes that it evaluated the policy when it was adopted in 2003
    but will reevaluate the policy as recommended. OSHA established a 3-year rate comparison
    (4 years for smaller participants) in 2003 due to substantial fluctuations from year to year in




                                                                                              OSHA VPP
                                                 38                          Report No. 02-14-201-10-105
                                         U.S. Department of Labor – Office of Inspector General




                                                  3


   industry rates that may not fairly represent the injury and illness situation in an industry. The
   use of a 3-year average in evaluating a worksite's injury and illness rates is included in other
   agency policies and procedures outside of the VPP program. While participants with higher
   than industry average rates after the 3 or 4 year period are not removed from the program,
   they are put on 2-year rate reduction plans during which the participants address the issues
   that led to the higher than average rates.

   It is important to note that this policy impacts only a small number ofVPP participants­
   only 6 percent ofVPP participants (107 of 1,834) had 3-year rates above the industry
   average. Of those participants, OSHA followed its policy in most cases (80 of 107), and
   placed these sites on a rate reduction plan. As a result, injury and illness rates at these sites
   were addressed within 3-4 years. OSHA also uses other mechanisms (e.g., participant's
   annual self- evaluation and quarterly reports to the Region) to ensure participants' are
   monitored appropriately while rates are being addressed.

   We believe that the statements about sites with 2-year averages that exceed BLS rates are not
   relevant to the overall discussion. The VPP manual does not require the Regions to take any
   action until a participant's 3-year rate is above the industry average and the OIG has
   presented no evidence that two years of exceeding the BLS rates necessarily indicates that
   workers are not fully protected. Nevertheless, as stated above, OSHA will examine this
   policy to determine if adjustments would improve the program.

2. Improve data reliability by using one database with appropriate information controls,
   or implement processes ensuring reconciliations of VPP databases arc conducted
   regularly and before reports on VPP statistics are generated.

   OSHA response: OSHA agrees that more effective processes should be established to
   ensure that the national VPP database is reconciled with the Regional VPP databases. OIG
   notes that the OSHA Information System (OIS) was the planned replacement for the ll
   databases currently used (one national and ten regional). At present, OSHA has determined
   that OIS will not be expanded to include a module for VPP users. OSHA will pursue other
   steps to improve data reliability, including National Office coordination with the Regional
   Offices to conduct data integrity checks on a regular basis.

3. Monitor implementation of VPP Memorandum #1 to ensure sites with fatalities and
   enforcement actions a r e addressed consistently and timely.

   OSHA r esponse: OSHA agrees with this recommendation. OSHA is evaluating several
   options for improving notification and tracking of actions following fatalities and
   enforcement actions. OSHA currently requires that Regions notify the National Office of
   fatalities/catastrophes at VPP sites. Relevant information is tracked in a VPP fatality
   tracking database, which is being updated to improve tracking of the steps taken following an
   event. This system may be expanded to track·other enforcement actions. OSHA is also .
   exploring the addition of a VPP code in OIS to ensure that any investigation initiated at a
   VPP site is coded as such. If implemented, this will improve the notification and tracking of




                                                                                               OSHA VPP
                                                  39                          Report No. 02-14-201-10-105
                                        U.S. Department of Labor – Office of Inspector General




                                                  4

   sites where enforcement activities are ongoing and will reinforce the integrity of the existing
   VPP fatal ity database.

   Updating the database and adding the code to OIS will allow OSHA the ability to consistently
   and timely address these sites. While these events are setious and require robust action on the
   patt of the agency, we again wou ld like to emphasize that they occum:d at only 4 percent of
   VPP participants between FY 2009 and 2012.

4. Establish a system to analyze ins pection information for continuous imp1·ovement of
   VPP.

   OSHA •·esponse: OSHA agrees with this recommendation, but it will likely lake some time
   and thoughtful consideration to decide how best to address it. As noted, this recommendation
   addresses a very small subset of the VPP sites in the program. OSHA will look at ways that it
   can coordinate more effectively with the Regions in reviewing fatality/ enforcement cases and
   identifying areas for improving both the quality of participants' safety and health management
   systems and OSI-IA's evaluation process. TI1e fatality database discussed above in
   recommendation 3 will facilitate the review of these fatality/enforcement cases.

   OSHA cun-ently uses success stories posted on its public web page to highlight VPP
   participants who have achieved outstanding results in protecting workers and improving
   safety and health management systems. Similarly, OSHA could gather inspection infom1ation
   from affected VPP sites and deve lop "lessons learned" summaries that could be shared
   internally and possibly with otl1er VPP participants.

5. Establish a cont1•ol to monitor whet.he•· sites with high er tha n indust•·y ave1·age injm·y
   and illness r ates a1·e consistently and timely addressed within VPP.

   OSHA •·esponse: OSHA has taken measures to address this recommendation but agrees that
   additional controls should be implemented.

   OSHA clarified its controls for addressing participants with higher than industry average
   injury and illness rates in VPP Policy Memo #1 (Aug. 3, 2009). The Policy Memo lays out
   the steps that Regions must take when a VPP patticipant's 3-year rates exceed industry
   averages, including reviewing the rates during reapprovals and upon receiving annual self­
   evaluation reports, and documenting this review in the pa1ticipant file. The Policy Memo
   also include.~ procedures for the Nationa.l Office to ensure the Regions are complying with
   the evaluation timeframes.

   In addition to documenting tl1e procedure.~ in Memo #1, tl1e National Office conduct~ mmual
   comprehensive reviews of Regional VPP participant files. This fi le review allows the
   National Office to monitor whether the Regions are following procedures and meeting
   deadlines. OSHA has also added categ01ies to tl1e annual data t-epotts tl1at the Regions
   submit to the National Office. The new categories document when a p111ticipant has been
   placed on a rate reduction plan, ! -year conditional status, and the dates the action was




                                                                                            OSHA VPP
                                                40                         Report No. 02-14-201-10-105
                                         U.S. Department of Labor – Office of Inspector General




                                                  5

   implemented and completed. This level of tracking enables the National Office to monitor
   pat1icipa nt~
              whose rates or safety and health management systems need improvement.

   Improvements in data integrity made to address in response to Recommendation 2 will also
   help assure that the Region and National Office have similar data regarding sites for which
   action should and has been taken. Review of the data for these sites on a routine basis is
   central to the program and can be f01malized in internal operating practices to address this
   recommendation.

6. Develop and implement pt·ocesses and priorities that will ensm·e participants at·e evaluated
   timely f'ot· continuing eligibility for VPI>. In developing these processes and pl"iorities, OSHA
   shotdd evaluate all viable options to ensm·e t hat the integl"it)• of the progntm is maintained
   given the constmints of its available t·esout·ces.

   OSHA r·esponse: OSHA agrees with this recommendation. OSHA will continue to refine its
   processes and priorities to more efficiently match its resources to the need for onsite visits and
   ensure that participants are timely evaluated for continuing eligibility. OSHA made substantial
   progress in addressing the backlog of overdue VPP reevaluations in FY 2012 and
   2013. However, OSHA's efforts to eliminate the backlog were hindered by resource
   limitations and sequestration, which reshicted travel for onsite visits . OSHA is aware ofthe
   budget uncertainty, but will continue to look at all possible options to address the backlog while
   still processing new applications. OSHA is working with the Regions to develop a rational
   approach LO prioritizing pending and overdue reapprovals. In addition, OSHA will implement
   ways to ensure greater Regional adherence to evaluation timeframes by providing periodic
   reports of overdue evaluations to the Regions.

   OSHA has no plans to develop an alternative to the onsite evaluations. We believe that
   onsite evaluations are a critical patt of the process tor evaluating a participant's continuing
   eligibility for VPP.

7. Ensure reliable injm·y and illness data at·e used to repor-t VPP successes tied with
   injury and illness statistics.

   OSHA r·esponse: OST-IA agrees with the recommendation and will continue to work with
   the Regions to improve the process for collecting injury and illness data.




                                                                                              OSHA VPP
                                                 41                          Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
               42                  Report No. 02-14-201-10-105
                                    U.S. Department of Labor – Office of Inspector General


                                                                            Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz, Rebecca Bowen, Sean Ally, Cassie
Galang, Nadeem Afzal, Mary Lou Casazza, and Ajit Buttar.




                                                                              OSHA VPP
                                         43                  Report No. 02-14-201-10-105
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                                    OSHA VPP
               44                  Report No. 02-14-201-10-105
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
